HHS/OIG, Audit - "Review of Escheated Warrants for the State of Maryland's Department of Health and Mental Hygiene," (A-03-02-00202)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Escheated Warrants for the State of Maryland's Department
of Health and Mental Hygiene," (A-03-02-00202)
January 13, 2003
Complete
Text of Report is available in PDF format (511 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to assess the effectiveness and efficiency
of  Marylands procedures for identifying, crediting and reporting the
federal financial participation (FFP) of escheated warrants.  Our review
covered July 1, 1998 through June 30, 2001.  We determined that for this
period, Maryland's Department of Health and Mental Hygiene did not reimburse
FFP of:  (1) $62,265 in unpresented checks; (2) $10,441 in undeliverable
checks; and 3) $6,248 for canceled or deleted checks.  We calculated accrued
interest of $23,499 for the FFP portion on the escheated warrants.